HHS/OIG, Audit - "Review of Managed Care Additional Benefits at Ochsner Health Plan of Louisiana for Contract Year 2000," (A-06-01-00048)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Managed Care Additional Benefits at Ochsner Health Plan of
Louisiana for Contract Year 2000," (A-06-01-00048)
October 21, 2002
Complete
Text of Report is available in PDF format (1.5 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to assess whether additional benefits proposed
in Ochsner's Contract Year (CY) 2000 adjusted community rate proposal (ACRP)
were available to Medicare beneficiaries as advertised and were comparable to
costs actually incurred, and whether the actual additional benefits were properly
valued.  Our review showed that, during 2000, Ochsner provided the additional
benefits proposed in its CY 2000 ACRP.  However, we found that Ochsner
distributed the incorrect prescription drug formulary guide to its Medicare
enrollees, resulting in overpayment of prescription drug copayments totaling
$4,281 by 104 enrollees.  Ochsner told us that they are refunding those
overpayments.